REVIEW OF THE FEDROOMS PROGRAM
  FEDERAL ACQUISITION SERVICE
REPORT NUMBER A070167/Q/9/P08002
        FEBRUARY 4, 2008
Carlson Wagonlit Travel (CWT) was awarded the contract on September 21, 2004 to
manage FedRooms. CWT’s office, which is located in Minnesota, has a total of seven
employees (Program Director and six staff members) responsible for managing and
marketing the program.

Specifically, CWT is required to abide by the following contract requirements:

    •	 Provide lodging rates at-or-below per diem;
    •	 Negotiate and ensure compliance of FedRooms hotel rates;
    •	 Provide room inventory necessary to meet 75 percent of the estimated room
       nights for federal employees at top federal travel destinations;
    •	 Maintain an updated list of FedRooms properties on a designated web-site;
    •	 Provide an updated inventory listing for access to Travel Management Centers
       (TMCs) and electronic Travel Services (eTS);
    •	 Provide help desk services;
    •	 Provide lodging properties that are deemed Federal Emergency Management
       Agency (FEMA) compliant, with a minimum 2-diamond American Automobile
       Association (AAA) rating, or equivalent;
    •	 Collect 2.75 percent participating fee for every room night identified as a
       FedRooms booking (with quarterly remittance of 0.75 percent to GSA);
    •	 Report to GSA on FedRooms rate occupancy activity; and
    •	 Conduct marketing campaigns to promote usage and benefits of FedRooms in
       partnership with GSA’s Office of Travel and Transportation.

As of June 23, 2007, there were 4,491 accepted 1 participating FedRooms hotel
properties. Of the 4,491 hotels, 3,372 (or 75 percent) were identified as
domestic/transient hotels or short term stays. The remaining 25 percent consisted of
846 long term stay hotels (or 19 percent) and 273 (or 6 percent) international hotels.
An estimated 85 percent of the domestic/transient properties were affiliated with the six
largest hotel groups involved in the program (Appendix A, Slide A-12).

According to data from the General Services Administration’s (GSA) SmartPay travel
card, expenditures for official civilian and military travel totaled $6.8 billion for fiscal year
2006; including hotel and airline costs of $2.2 billion and $3.3 billion, respectively. The
GSA-run City Pair Airfare Program, a 27 year-old mandated discount air transportation
program for federal travelers, attains an estimated 60 percent participation. Whereas,
the non-mandated FedRooms Program, now in its fourth year, is experiencing usage of
less than 1 percent of total government lodging expenditures.

1
 Accepted status indicates CWT has approved a hotel’s rate proposal, confirmed the hotel’s FedRooms
rates were posted, and verified the government’s safety requirements.


                                                 2

Prior to the FedRooms Program, the Office of Government-wide Policy (OGP) managed
a similar lodging program, i.e., the Federal Premier Lodging Program (FPLP), from 1999
to 2004. Nearly 600 participating hotels in 70 cities were under contract with the lodging
program that required payment of a fee directly to GSA. A July 2003 OGP Advisory
Board report recommended outsourcing the FPLP in order to not only improve service
and reduce operating costs, but also increase the government’s purchasing power over
hotel lodging with a newly managed program.


OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the review were to determine whether: (1) the FedRooms program
provided federal travelers ease of reservation access, best value, reservation flexibility,
and FEMA compliant hotels; (2a) federal travelers were using the FedRooms Program;
and (2b) FAS could enhance the FedRooms Program.

Our review focused on data related to the FedRooms program from its inception in
September 2004 through September 2007. In addition, the basis of our analyses was
the domestic/transient or short term stay hotels, which represented 3,372, or 75 per-
cent, of the total participating properties.

To accomplish our objectives, we performed the following steps:

   •	 Analyzed FAS reports, documents, data, surveys, and presentations related to
      the FedRooms Program and CWT information on corporate lodging, travel card
      data, marketing presentations and traveler surveys;

   •	 Reviewed applicable Federal Travel Regulations (FTRs), travel advisories and
      audit reports, and tested FedRooms reservation accessibility on CWT’s
      FedRooms website and E2 solutions travel booking engine;

   •	 Verified FedRooms information using the following websites: American
      Automobile Association and FEMA’s Hotel/Motel Fire Safe List; and,

   •	 Held discussions with travel personnel from the following organizations:

      o	 Office of Travel and Transportation Services (QMC) and FAS Office of the
         Controller (QB) at FAS headquarters in Arlington, VA;
      o	 FAS Travel Management Branch in the Pacific Rim Region in
         San Francisco, CA;
      o	 Office of Government-wide Policy, Office of Travel, Transportation and Asset
         Management at GSA Central Office in Washington D.C.;


                                            3

      o CWT FedRooms Group at corporate headquarters in Minnetonka, MN;
      o Department of Defense travel management personnel; and
      o Representatives from four government Travel Management Centers (TMCs).

The audit was conducted in accordance with generally accepted government auditing
standards.


RESULTS OF REVIEW

FedRooms provided all the benefits to federal travelers that the program claimed, which
included ease of reservation access, best value, reservation flexibility, and FEMA
compliant hotels. Despite the FTR’s statement that federal travelers must give first
consideration when selecting commercial lodging for official travel, they were not using
FedRooms to reserve hotel lodging. The low usage of the program was possibly due to
three reasons: marketing not receiving desired results, personal preferences of
travelers, and not mandating the use of FedRooms. In addition, several obstacles exist
that management needs to address before enhancements to the program can be
considered.

Results of our review were           presented    to   FAS   management       officials   on
December 4, 2007 (Appendix A).

FedRooms Benefits

The benefits that were claimed under FedRooms were realized for users. Federal
travelers on official business can easily access FedRooms through several avenues.
The program provided the opportunity to save the government on hotel costs via lower
rates and/or fee avoidances (e.g., early checkout or cancellation), and ensured FEMA
compliance.

Ease of reservation access: FedRooms provided four methods of access for booking
a hotel reservation: electronic travel system’s (eTS) booking engine, FedRooms.com
web-site, contacting the hotel directly, and a TMC reservation request. The results of
our review indicated FedRooms access is readily available to federal travelers.

Federal travelers’ use of eTS provides an opportunity for one-stop service for making
traveling arrangements such as hotel lodging. Three on-line booking engines (E2
Solutions, GovTrip, and FedTraveler), which do not cover the Department of Defense
(DoD), allow the traveler to choose whether to use or not use (i.e., opt in or opt out) the
hotel booking module. For those travelers who elect to make hotel arrangements on-
line, these systems provide booking access to hotel properties, displaying FedRooms
properties first. Travelers who decide not to use eTS’ reservation system for hotel

                                            4





lodging are not required to provide a reason for opting out of the on-line system. The
Defense Travel System (DTS), which is the DoD’s electronic travel service, allows only
viewable access to FedRooms listings and rates, with no ’bookable’ FedRooms access.
As a result, DoD employees have no direct access through the DTS to make hotel
lodging arrangements with FedRooms. Instead, employees would have to access
FedRooms through its website or contact the hotel or their travel management center.

CWT’s web-site for FedRooms (www.FedRooms.com) provides federal travelers
universal internet access to available hotel property information. Based on CWT data,
user activity on its website has increased significantly, with a 121 percent increase
comparing the first nine months of calendar years 2006 and 2007. However, a June
2007 survey disclosed that federal travelers were four times as likely to utilize hotel
web-sites to book reservations rather than the FedRooms website.

By far the most popular method to book a hotel reservation under FedRooms is calling
the hotel directly to request lodging at the FedRooms rate. A recent May 2007 survey
of more than 1,800 travelers at 19 federal government agencies and state governments
revealed that 48 percent of hotel reservations were made by calling the hotel directly.

Finally, another option that federal travelers can turn to when making hotel reservations
is to contact their agency’s travel agent or TMC (e.g., Adventure Travel, SATO,
Omega). According to travel officials from four TMCs, federal travelers must specifically
request the FedRooms rate to ensure that the traveler receives the program’s benefits.

Best Value: Federal travelers were ensured not only best value with hotel rates at or
below the government’s domestic per diem lodging rates but also reasonable quality,
whereby, the minimum AAA-Diamond hotel rating established for FedRooms properties
was met. Additionally, federal travelers were generally receiving better value when
compared to CWT's corporate clients.

With an inventory of 3,372 domestic/transient FedRooms hotels, CWT was able       to
negotiate below the government’s domestic per diem lodging rates for          1,328
(or 39 percent) of the FedRooms hotels nationwide. Federal travelers were saving an
average of $19.39 at hotels offering below per diem rates. The remaining 61 percent 
 

of the hotels were at the government’s domestic per diem lodging rate. As a result, 
 

federal travelers are assured of best value when booking a FedRooms rate 
 

(Appendix A, Table 2, Slide A-20)

However, it is important to note that the 39 percent of FedRooms hotels offering below-
per diem rates represented only two percent of actual room nights booked by federal
travelers during our review period. CWT reported $10.5 million in total FedRooms
lodging revenue for the twelve-month period ended June 30, 2007. Our analysis


                                           5





indicated federal travelers saved only $40,594 (or 0.4 percent) staying at FedRooms
hotels with rates below the domestic per diem lodging rates.

The FedRooms Statement of Work established a minimum AAA 2-diamond hotel rating
(on a 5-diamond scale) for the program. In our review of 375 FedRooms properties in
20 randomly selected U.S. cities, 82 percent of the sampled FedRooms hotels were
located on the AAA hotel search-engine (aaa.com). All of the FedRooms hotels that
were located on the web-site met the minimum 2-Diamond rating, with 97 percent
receiving a rating of 3 or 4 diamonds.

Federal travelers were generally getting the best value when compared to 18 CWT
large corporate clients with at least 100 FedRooms property locations in their program.
We reviewed the spreadsheet of CWT’s negotiated corporate rates and FedRooms
rates compiled by CWT. FedRooms rates compared favorably to corporate rates for the
same hotels, with FedRooms receiving the better rate 65 percent of the time.

Reservation Flexibility: FedRooms touts the benefit of reservation flexibility that
includes a wide selection of hotels (inventory choice of nearly 4,500 accepted hotels);
no fees for either early departure or failure to adhere to the hotel’s cancellation policy;
and the benefit of Last-Room-Availability (LRA). LRA is a FedRooms benefit that
provides federal travelers last minute lodging at an LRA-participating hotel based on
room availability. Because relevant data regarding LRA was unavailable, it was not
possible to verify or validate LRA requests, or determine if LRA requests were honored
or refused within the program. Based on an inventory of 3,913 hotels as of
September 1, 2007, 64 percent or 2,495 hotels offered LRA. Travelers can determine if
a selected FedRooms property offers LRA from the FedRooms.com web-site.

FEMA Compliance: FedRooms hotels were FEMA compliant as a result of verifying a
random selection of 103 FedRooms properties. In accordance with the Hotel and Motel
Fire Safety Act of 1990, Public Law 101-391, aimed at improving fire safety in hotels,
motels, and other places of public accommodation, Federal employees on official travel
should stay in fire-safe accommodations. The U.S. Fire Administration (an entity of the
Department of Homeland Security's FEMA) compiles a list of such properties. Selected
FedRooms properties on this list were considered FEMA-compliant.

Limited Use of FedRooms

Based on our review of GSA SmartPay and FedRooms data, federal travelers were not
using FedRooms to make hotel reservations when planning for official business travel.
The low usage may have been attributable to three reasons: CWT’s marketing efforts,
traveler’s personal preferences, and not mandating program usage.



                                            6

For calendar year 2006, FedRooms usage accounted for less than one-half of one
percent of federal travel lodging dollars spent (or 0.47%) 2 . In addition, FedRooms also
accounted for less than one-third of one percent of federal travel room nights (or
0.30%) 3 .

Based on our analysis, we determined that FedRooms activity over the past 2.5 years
(from April 2005 through September 2007) showed an increase of only 15 percent
based on hotel expenditures. We also discovered that growth on the number of room
nights for FedRooms activity was not sustained (Appendix A, Slides A-30 and A-31 for
additional details).

Possible Reasons for Low Usage

Low usage of FedRooms by federal travelers may have been due to three reasons.
First, marketing-related efforts may not be achieving the desired results even though
CWT’s attempts to spread the word on FedRooms were quite numerous. CWT’s
marketing efforts included briefings to agencies’ Chief Financial Officer and travel
management personnel to convince them that use of FedRooms could result in potential
savings to the agency. CWT also advertised the hotel program through various
avenues such as government periodicals, travel card billing inserts, and GSA
expositions in order to reach a wider range of federal travelers. Also, the FedRooms
website appears to have the necessary information to sufficiently inform travelers of the
hotel program. Second, personal preferences of travelers may have also contributed to
disappointing results of FedRooms usage. Changing the traveler’s habits has proven to
be difficult; in part because the Fedrooms program offers little additional incentive, and
federal travelers generally seem to be satisfied with their own method of booking hotel
rooms. Third, not mandating the use of FedRooms for federal travelers may be a
possible reason for low usage. According to OGP officials, the likelihood of obtaining
Congressional approval to require federal travelers to use FedRooms will not occur
anytime soon.

FedRooms Enhancements

Before any enhancements to FedRooms are considered, FAS should first address the
program’s obstacles through the development of a business plan. If the obstacles are
ignored, the viability of the program may be at risk.



2
 Percentage of lodging dollars calculation: $7.3 million (FedRooms lodging revenue) / $1.5 billion (GSA
SmartPay federal hotel expenditures) = 0.47%
3
 Percentage of travel room nights calculation: 62,883 FedRooms nights / 21.2 million total nights =
0.30%.

                                                    7

Obstacles of FedRooms: The obstacles in the program that should be of concern to
management include the following: (1) no incentives for federal travelers; (2) no
differentiation between the FedRooms rate and the government rate; and, (3) limitation
of GSA’s per diem rate for lodging. The first obstacle that FAS should address is that
federal travelers have no incentive to reserve lodging at a FedRooms rate. We
determined that there were no incentives such as free meals, no-cost internet service,
and/or courtesy airport shuttle provided by FedRooms hotels to cause dramatic
changes in travelers’ behavior in booking a FedRooms property over their favorite hotel.
With the second obstacle, there was no differentiation between the FedRooms rate and
the hotel’s government rate. Major hotel chains generally provide most of the
FedRooms benefits with their own ‘government’ rates. As a result, participating hotels
can offer travelers their government rate along with the standard benefits, avoiding the
2.75 percent FedRooms fee. As noted earlier, in order to ensure a Fedrooms hotel rate,
federal travelers need to specifically request the Fedrooms rate. Finally, dealing with
the government’s per diem rates for lodging is the third obstacle and a bit of a challenge
for FAS. Because these rates already provide a built-in price control or ceiling, hotels
are discouraged to offer room rate reductions.

In order to address these obstacles, FAS should develop and deploy a business plan.
Included in a business plan are corresponding performance measures, which not only
track how well program results compare to the program’s intended purpose, but also
establish a mechanism for making changes when needed. As directed by the
Government Performance and Results Act of 1993, Federal agencies are held
accountable for achieving program results. Specifically, agencies should develop a
business plan (whose focus is usually on a particular product, service, or program) with
such elements as goals, objectives, timelines, and performance measures (Appendix A,
Slide A-35).

CONCLUSION

While we recognize that FedRooms has only been in existence for over 3 years,
progress has been made with the inclusion of over 4,000 hotels and increased
accessibility. However, actual program utilization has been less than one percent of
total federal lodging expenditures or room nights, since its inception. With the
government’s buying power of 21 million annual room nights 4 for official business travel,
the government is in a position to leverage its buying power, thereby dramatically
increasing its opportunity for savings under FedRooms.




4
    GSA SmartPay Travel Card data, calendar year 2006.


                                                   8
GSA, Office of Inspector General
Review of the FedRooms Program
Federal Acquisition Service
Report Number A070167/Q/9/P08002




Appendix A

                                   A-1
         Review of the FedRooms Program



Audit Objectives, Scope & Methodology

                   Audit Objectives
1. Did FedRooms provide federal travelers: ease
    of reservation access; best value; reservation
    flexibility; and Federal Emergency
    Management Agency (FEMA) compliant
    hotels?
2a. Were federal travelers using the FedRooms
    Program?
2b. What could the Federal Acquisition Service
    (FAS) do to enhance the FedRooms Program?
                                                A-2
               Review of the FedRooms Program

                             Audit Scope
    Information related to the FedRooms Program from its inception in
    September 2004 through September 2007.


                             Methodology
o   Analyzed FedRooms’ reports, documents, data, surveys, and
    presentations provided by FAS;
o   Analyzed Carlson Wagonlit Travel (CWT) corporate lodging information,
    GSA SmartPay (travel card) data, presentations and traveler survey
    results provided by CWT;
o   Reviewed Federal Travel Regulations (FTRs); advisory and audit
    reports;
o   Reviewed FedRooms reservation accessibility on CWT’s
    www.FedRooms.com and E2 Solutions travel booking engine
    (http://ets.prod.carlson.com);
o   Verified FedRooms information to the following web-sites: American
    Automobile Association (www.aaa.com), FEMA’s Hotel/Motel Fire Safe
    List (www.usfa.dhs.gov/applications/hotel/#searchlist).

                                                                   A-3
                Review of the FedRooms Program


                           Methodology
                                (continued)
o   Held discussions with personnel from the following
    organizations:
    • Office of Travel & Transportation Services (QMC) and FAS Office of the
      Controller (QB) at FAS headquarters in Arlington, VA;
    • FAS Travel Management Branch in the Pacific Rim Region, San
      Francisco, CA;
    • Office of Government-wide Policy, Office of Travel, Transportation and
      Asset Management at GSA Central Office;
    • Carlson Wagonlit Travel, FedRooms Group at corporate headquarters
      in Minnetonka, MN;
    • Department of Defense travel management personnel; and
    • Representatives from 4 government Travel Management Centers
      (TMCs).


                                                                       A-4
               Review of the FedRooms Program


                           Background


   FedRooms is the official government-wide, sponsored
    lodging program that provides FTR-compliant hotel rooms
    for federal travelers (civilian and military) while on official
    business.


   The FTR states that first consideration must be given to
    commercial lodging facilities under the FedRooms
    Program when federal travelers make their hotel selection.


                                                               A-5
            Review of the FedRooms Program


                       Background

 FedRooms succeeded the Federal Premier Lodging
Program (FPLP), which was managed by the GSA Office of
Government-wide Policy (OGP) from 1999 to 2004. More than
600 participating hotels in 70 U.S. cities were under contract
with FPLP. Program revenue was based on a funding fee of $3
per room rental night.

 A 2003 OGP Advisory Board Report recommended
outsourcing a comprehensive lodging program in order to
leverage the government’s overall buying power for hotel
lodging at-or-below per diem lodging rates without a mandated
program.
                                                                A-6
              Review of the FedRooms Program

                             Background
FedRooms promotes the following benefits with a room reservation:
9 Rates are at-or-below per diem;
   Note: the FedRooms rate and a hotel’s “government” rate are not the
     same.
        FedRooms rates are negotiated specifically for federal
          travelers; and, hotels must agree to the program terms &
          conditions.
        “government” rates are determined by each hotel.
9 Federal travelers can cancel a reservation until 4pm (or later, in some
  hotels) on the day of arrival without penalty;
9 No added costs (i.e., maid fee, health club fee, resort fee) or penalties
  are attached to the rate;
9 Federal travelers will not be charged an early check-out fee; and,
9 Two-thirds of the FedRooms hotels offer Last Room Availability (LRA).
                                                                       A-7
           Review of the FedRooms Program

                     Background


¾    Federal travelers have several options for making
     a FedRooms reservation:
    1. the website www.FedRooms.com;

    2. the government agency’s electronic travel
        service (eTS); GSA uses e2 Solutions from
        CWT;
    3. the government agency’s travel management
        center (e.g., Adventure Travel for GSA); or
    4. the hotel’s toll free reservation phone number,
        direct line, or website.
                                                         A-8
                 Review of the FedRooms Program

                                      Background


 Total Federal Travel Costs: Based on calendar year 2006 travel
  card data, expenditures for official civilian and military travel totaled
  $6.8 billion. Included in the total were hotel and airline costs of
  $2.2 billion* and $3.3 billion, respectively.
 FedRooms versus City Pair Airfare Program: Unlike the GSA-run
  City Pair Airfare Program, FedRooms is not mandated for federal
  travelers. City Pairs is an established program that was initiated 27
  years ago, whereas, FedRooms has been in operation for only 3
  years. As a result, FedRooms usage comprises less than 1% of
  total government lodging expenditures; as compared to an
  estimated 60% participation in the City-Pair program.
  *Total hotel costs are believed to be significantly understated due to federal travelers who chose
   not to use the federal charge card while on official business. According to an FAS Travel
   official, the estimate for total hotel expenses may run as high as $4.0 billion.

                                                                                               A-9
                    Review of the FedRooms Program

                                     Background

   In an effort to increase the government’s leverage, FAS awarded a
    contract on September 2004 to Carlson Wagonlit Government Travel to
    manage the FedRooms lodging program.
   The contract is currently in its third of four option years. Among the
    contract requirements were:
     • Provide room inventory necessary to meet 75% of the estimated room nights for federal
        employees at top federal travel destinations.
     • Maintain an updated designated web-site with FedRooms inventory.
     • Provide an updated inventory listing for access to TMCs and electronic Travel Services.
     • Provide lodging rates at-or-below per diem.
     • Provide lodging properties that are deemed FEMA compliant; and have achieved a
        minimum 2-diamond American Automobile Association (AAA) rating, or equivalent.
     • Report quarterly to GSA, FedRooms rate occupancy activity.
     • In partnership with GSA, conduct marketing campaigns to promote usage and benefits
        of FedRooms.
                                                                                      A-10
             Review of the FedRooms Program


                           Background

In accordance with the contract, CWT also provides the following
   services:
   Negotiating FedRooms Hotel Rates;
   Ensuring Compliance of Hotel FedRoom Rates;
   Collecting 2.75% from participating FedRooms Hotels (with
    quarterly remittance of 0.75% to GSA); and
   Providing help desk services.


CWT Staff - A total of 7 employees (Program Director and 6 staff
  members) located in Minnetonka, MN are responsible for
  managing and marketing the FedRooms Program.

                                                                   A-11
                Review of the FedRooms Program


                            Background


Total Participating Hotels:

As of 6/23/2007, the number of ‘accepted’ participating
  FedRooms hotels totaled 4,491.
          ‘accepted’ status indicates CWT has approved a hotel’s rate
          proposal, confirmed the hotel has posted the FedRooms rates,
          and verified the government’s safety requirements;
      3,372 (75%) domestic/transient (domestic) hotels [short term
       stays];
      846 (19%) extended stay hotels [long term stays];
      273 (6%) international hotels.
                                                                      A-12
                         Review of the FedRooms Program

Participating Hotels
The six largest hotel groups (below) represent 85% of FedRooms locations.

Table 1 – Largest hotel groups and brands of participating FedRooms properties
                                                                                           Number       % of
Hotel Group                            Participating Brands                                   of     FedRooms
                                                                                            Hotels    Domestic
                                                                                                     Properties
     Hilton          Hilton, Doubletree, Hampton Inns, Embassy Suites, Homewood                936     28%
                     Suites
     Choice          Comfort Inns, Clarion, Quality Inns, Mainstay Suites, Rodeway Inns,       598     18%
                     Sleep Inns, Econo Lodge
 Intercontinental    Holiday Inn, Crown Plaza, Intercontinental, Indigo Hotels                 560     17%
     Group
    Carlson          Radisson, Country Inn & Suites                                            317     9%
   Wyndham           Ramada, Super 8, Days Inn, Wyndham, Wingate, Travelodge,                  356     10%
                     Howard Johnson, Baymont Inn & Suites, Amerihost Inns
   Starwood          Sheraton, Westin, Four Points by Sheraton                                 107     3%
      Total                                                                                  2,874     85%
Source – CWT’s accepted status of domestic properties, as of 6-23-2007.
                                                                                                        A-13
        Review of the FedRooms Program


Results in Brief:
The FedRooms Program provided all the
 benefits as claimed such as ease of reservation
 access, best value, reservation flexibility, and
 FEMA compliant hotels.
Federal travelers were generally not using
 FedRooms to make their hotel lodging
 arrangements for official business travel.
 Program obstacles existed that may risk the
 viability of the program. Before enhancements
 can be considered, FAS must address program
 obstacles through the development and
 deployment of a business plan.

                                                A-14
                Review of the FedRooms Program
Objective 1: Did FedRooms provide federal travelers:
  ease of reservation access, best value, reservation
  flexibility, and FEMA compliant hotels?

FedRooms did provide the following services as claimed:
9   Ease of Reservation Access - There were ample options for
    Federal Travelers to access FedRooms.
9   Best Value – Federal travelers were given hotel rates that were
    either at or below per diem and compare favorably to contractor’s
    negotiated hotel rates for corporate clients.
9   Reservation Flexibility – Federal travelers would not be subject to
    hotel fees such as early check-out or cancellation.
9   FEMA Compliant Hotels – Federal travelers were assured that
    hotels in the FedRooms Program were FEMA compliant.


                                                                     A-15
             Review of the FedRooms Program

Ease of Access:       There are 4 methods that are intended to
     provide the federal traveler access to making a FedRooms
     hotel reservation:

1.   Logging online via an electronic travel system's (eTS) booking
     engine:
     9   e2 Solutions, GovTrip, or FedTraveler provide electronic travel
         services to non-Department of Defense (DoD) federal agencies; and,
     9   DTS (Defense Travel System) provides electronic travel services to
         DoD employees;
2.   Accessing the www.FedRooms.com web-site;
3.   Calling the hotel directly to request the FedRooms rate; or
4.   Contacting their travel agent at their agency's Travel Management
     Center (TMC), e.g., Adventure Travel, SATO, Omega.



                                                                     A-16
              Review of the FedRooms Program



Ease of Access- eTS
1. All 3 (non-DoD) eTS systems offer 2 options:
    9 Opt-out: Allows traveler to skip the eTS’ hotel reservation with
       no reason required.
    9 Opt-in: Allows traveler to use the system's hotel booking section
       with access to FedRooms properties, which are displayed first
       among the listed hotels.
    DoD’s DTS system:
    • currently has ‘viewable’ access to FedRooms properties and
      rates;
    • No “bookable” FedRooms access at this time.

      DoD employees have the other 3 options:
      website – www.FedRooms.com, Hotel’s Reservation Number,
      and their TMC agent.
                                                                   A-17
              Review of the FedRooms Program



Ease of Access: On-line / Telephone / TMCs
2.   www.FedRooms.com provides the traveler access to available
     hotel property information without logging into their eTS account.
     The website has seen a significant increase user activity for the
     first 3 quarters of 2007 compared to 2006; indicating a 121%
     percent increase. However, a federal traveler survey indicated 4
     times as many reservations are made through hotel web-sites
     compared to FedRooms.com.
3.   A 2007 FedRooms-initiated survey of nearly 2,000 federal
     travelers from more than 20 different agencies indicated that 48%
     of FedRooms reservations were made by calling the hotel directly.
4.   FedRooms listings were available to all 4 TMCs that we contacted.
     However, federal travelers must specifically request the
     FedRooms rate.

                                                                    A-18
        Review of the FedRooms Program



Best Value:
   CWT ensured best value by negotiating rates
   at or below the government’s domestic per
   diem lodging rates. Furthermore, federal
   travelers are ensured best value based on
   the AAA-Diamond quality rating for
   FedRooms hotels.

   In our review, the negotiated rates compared
   favorably to corporate client rates.

                                             A-19
                        Review of the FedRooms Program

Best Value: (continued):
 At or Below Per Diem Rate
9    With an inventory of 3,372 domestic FedRooms hotels representing
     75% of FedRooms properties, CWT was able to negotiate below the
     domestic lodging rates for 1,328 (or 39%) of the FedRooms hotels
     nationwide (the scope of the Best Value review was limited to a review of domestic/transient hotels).
9    The average daily savings for these hotels offering below-per diem
     rates was $19.39.
9    The remaining 61 percent of the hotels were at the government
     domestic per diem rate for lodging.
Therefore, the government was receiving best value for the FedRooms
     inventory.
Table 2 - Number of FedRooms Hotels with Below-Per Diem Rates
                        (Difference between Per Diem Rate and Hotel Rate.)

Dollar amounts                                                                                       At Per
Below Per Diem     $100 - $150     $50 - $99      $26 - $49     $6 - $25     $0.01 - $5   SubTotal   Diem      Total
    # of Hotels        4              97            237           673          317        1,328      2,044     3,372
Percent of Total                                                                           39%       61%      100%
                                                                                                              A-20
           Review of the FedRooms Program



Best Value: (continued)

    At or Below Per Diem Rate (continued)

9   However, the 39% of FedRooms hotels with
    below-per diem rates represented only 2% of
    actual room nights.

9   CWT reported $10.5 million in total FedRooms
    lodging revenue. Federal travelers saved only
    $40,594 (0.4 percent) for the twelve month period
    ended June 30, 2007, as a result of staying at
    FedRooms hotels with rates below the domestic
    per diem lodging rates.
                                                        A-21
             Review of the FedRooms Program



Best Value: (continued)
Comparison of FedRooms Rates vs. Corporate Rates
9   Federal travelers were generally getting the best value when
    compared to CWT's corporate clients.
9   FedRooms rates compared favorably to CWT's negotiated
    corporate rates for the same hotels. The data compiled by CWT,
    titled FedRooms rate comparison to large Corporate Hotel
    Programs, included an analysis based on corporate lodging
    programs and FedRooms program data, obtained from the CWT
    worldwide hotel database. The analysis compared large corporate
    programs (those with at least 90 FedRooms hotel locations in their
    program) to FedRooms.
9   FedRooms rates were lower than corporate rates 65% of the time.


                                                                 A-22
            Review of the FedRooms Program



Best Value: (continued)
Minimum Hotel Standards
    FedRooms properties met the AAA 2-diamond
    minimum rating, as established in the FedRooms
    Statement of Work for 20 randomly selected U.S. cities:
   9   375 FedRooms hotels were listed in selected cities;
   9   82% of the sampled FedRooms hotels were located on the AAA
       hotel search-engine (aaa.com);
   9   All of the FedRooms hotels that were located on aaa.com met
       the minimum AAA 2-Diamond rating (on a 5-diamond scale):
        2-Diamond = 12% of hotel sample
        3-Diamond = 85% of hotel sample
        4-Diamond = 4% of hotel sample

                                                             A-23
             Review of the FedRooms Program



Reservation Flexibility:
FedRooms benefits offer reservation flexibility such as
   wide selection of hotels, no added fees and Last
   Room Availability (LRA).
Benefits of using FedRooms include:
   9   3,372 (accepted domestic) hotels.
   9   846 extended stay hotels.
   9   273 international hotels.
   9   LRA (64% hotel participation).
   9   No early-departure penalty.
   9   No add-on fees at check-out.
   9   4 p.m. (or later) day of arrival cancellation policy.
                                                               A-24
               Review of the FedRooms Program


Reservation Flexibility: (continued):
Nearly two-thirds of FedRooms hotels offer Last Room Availability.
LRA - is a traveler benefit linked to hotel lodging programs. It allows a
    traveler to obtain last minute lodging at an LRA-participating hotel,
    if a room is available. Similar benefits are offered to preferred
    corporate lodging programs.
     Because relevant data regarding LRA was unavailable, it was not
     possible to verify or validate LRA requests, or determine if LRA
     requests were honored or refused.
According to CWT, the number of domestic hotels in FedRooms offering
     last room availability: (Figures, as of September 1, 2007)
        LRA = 2,495 hotels (64%)
        Non-LRA = 1,418 hotels (36%)
     Federal travelers can locate LRA status for a selected FedRooms
     property from the FedRooms.com web-site.

                                                                       A-25
          Review of the FedRooms Program

FEMA Compliance:
   FedRooms hotels were FEMA compliant.

   Based on a random selection of 103 FedRooms properties
   (or 3 percent), all were determined to be FEMA compliant.

      The Hotel and Motel Fire Safety Act of 1990, Public Law
      101-391, is an Act of Congress aimed at improving fire
      safety in hotels, motels, and other places of public
      accommodation. The Act states that Federal employees,
      when on official travel, should stay in fire-safe
      accommodations. The U.S. Fire Administration (an entity
      of the Department of Homeland Security's Federal
      Emergency Management Agency [FEMA]) compiles a list
      of such properties.


                                                           A-26
              Review of the FedRooms Program



Audit Objective #1:

   Did FedRooms provide federal travelers: ease of
   reservation access, best value, reservation flexibility,
   and FEMA compliant hotels?

Conclusion:

   The benefits that were claimed under the FedRooms
   Program were provided to users of the program. Federal
   travelers on official business can easily access the program
   through several avenues. The program provided the
   opportunity to save the government on hotel costs via lower
   rates and/or fee avoidances (early checkout or cancellation),
   and ensured FEMA compliance.
                                                              A-27
                Review of the FedRooms Program


     Audit Objective #2a:
     Were federal travelers using the FedRooms Program?

     Based on GSA SmartPay, FedRooms, and TMC reservation
     data, Federal travelers were not using FedRooms to make
     hotel reservations when planning for official business travel.
¾     For calendar year 2006, FedRooms usage accounted for
      less than one percent of the:
    9    Federal travel lodging dollars spent - 0.47%
                ($7.3 million of $1.5 billion); and,
    9    Federal travel room nights - 0.30%
               (62,883 FedRooms nights vs. 21,222,811 total room nights).
¾    A Carlson Wagonlit Government Travel query of over 100,000
     reservations booked for the 12 month period ending August 2007,
     revealed that less than 5% were FedRooms reservations.

                                                                       A-28
               Review of the FedRooms Program



Possible reasons for low FedRooms usage:

   Marketing and Information efforts of the FedRooms Program have
    not achieved the desired results:
    9   CWT marketing provides briefing to Agency-wide CFO and travel management
        officials;
    9   Advertising (government periodicals, travel card billing inserts, and Expositions);
        and,
    9   Web-based FedRooms information (FedRooms.com, GSA web-page, eTS).
   Personal choice:
    9   Minimal incentive or no added value for the traveler (or his/her agency) to use
        FedRooms;
    9   Federal travelers are satisfied with their current methods of booking hotel rooms.
   No Mandate:
    9   Efforts to obtain Congressional approval unlikely anytime soon.


                                                                                   A-29
                    Review of the FedRooms Program

FedRooms activity over the past 10 quarters,
   based on Hotel Expenditures:
                           FedRooms Hotel Expenditures           Fiscal Year        FedRooms
                   3rd Quarter 2005 Through 4th Quarter 2007       Period             Hotel
                                                                                   Expenditures
            $4.0                                                 A- 3rd Qtr ’05    $ 2,388,017
            $3.0                                                 B- 4th Qtr ’05    $ 1,910,538
 Millions




            $2.0                                                 C- 1st Qtr ’06    $ 2,018,172
            $1.0
                                                                 D- 2nd Qtr ’06    $ 1,592,844
             0
                   A   B    C    D    E    F    G    H   I   J   E- 3rd Qtr ’06    $ 1,523,226
                                                                 F- 4th Qtr ’06    $ 2,700,772
                                Fiscal Year Period
                                                                 G- 1st Qtr ’07    $ 2,430,179
                                                                 H- 2nd Qtr ’07    $ 2,001,766
Utilization of FedRooms increased a mere 15%                     I - 3rd Qtr ’07   $ 3,622,119
from the initial date (FY 2005, 3rd Qtr) to the most
current period (FY 2007, 4th Qtr).                               J - 4th Qtr ‘07   $ 2,751,030

                                                                                       A-30
                             Review of the FedRooms Program

FedRooms activity over the past 10 quarters,
   based on Room Nights:
                                                                                                FedRooms
                           FedRooms Activity Based on Room Nights              Fiscal Year        Room
                           3rd Quarter 2005 Through 4th Quarter 2007
                                                                                 Period           Nights

              40,000                                                          A - 3rd Qtr ’05      23,580

              30,000
                                                                              B - 4th Qtr ’05      18,720
Room Nights




                                                                              C - 1st Qtr ’06      19,642
              20,000
                                                                              D - 2nd Qtr ’06      16,333
              10,000
                                                                              E - 3rd Qtr ’06       8,681
                  0
                       A     B    C    D      E      F      G   H    I    J   F - 4th Qtr ’06      18,177
                                           Fiscal Year Period                 G - 1st Qtr ’07      23,247

                                                                              H - 2nd Qtr ’07      15,049
 FedRooms Room Nights peaked during       Qtr                       3rd
                                                                              I - 3rd Qtr ’07      34,192
 2007. However, growth on the number of room
 nights was not sustained.                                                    J - 4th Qtr ‘07      25,947

                                                                                                 A-31
        Review of the FedRooms Program




Audit Objective #2b:
What could FAS do to enhance the FedRooms
   Program?

   Enhancements to the FedRooms Program
   cannot be considered until FAS
   addresses program obstacles through a
   business plan. If the obstacles are
   ignored, the viability of the program may
   be at risk.

                                            A-32
                   Review of the FedRooms Program



        Obstacles of the FedRooms Program:
       No tangible benefits to the federal traveler;
          No added incentives such as free meals, Internet, airport shuttle, etc. to
           use the program.
       FedRooms rate did not differentiate from the hotel’s government
        rate;
          Major hotel chains, those participating as well as those not participating in
           the FedRooms program, generally provide most of the FedRooms
           benefits with their own ‘government’ rates.
          Hotels, who participate in the FedRooms Program, can also offer federal
           travelers the ‘government’ rate, which will not cost them the 2.75 percent
           FedRooms fee.
          In order to ensure the FedRooms hotel rate, Federal travelers when
           making reservations, either through eTS, TMC, or hotel reservation
           number, are required to specifically request the FedRooms rate.
       GSA’s per diem rates for lodging, which provide a built-in price
        control for hotel rates, discourage hotels to offer rate reductions.
                                                                               A-33
              Review of the FedRooms Program

    In order to address program obstacles, FAS should
    develop and deploy a business plan.

¾   Included in the business plan are corresponding performance
    measures, which not only track how well results compare to
    the program’s intended purpose but also establish a
    mechanism for making changes when needed.

¾   As directed by the Government Performance and Results Act
    of 1993, Federal agencies are held accountable for achieving
    program results. Specifically, agencies should develop a
    business plan (whose focus is usually on a particular product,
    service, or program) with such elements as goals, objectives,
    timelines, and performance measures.


                                                                A-34
                 Review of the FedRooms Program



Elements of a Business Plan:

¾ Goals – Based on the analysis and alignment to the overall mission of the
  program, a set of goals is established that build on strengths to take
  advantage of opportunities.
¾ Objectives – Objectives are selected to be timely and indicative of progress
  toward goals.
¾ Timelines – Responsibilities are assigned, including implementation of the
  plan, and achievement of goals and objectives. Ideally, deadlines are set for
  meeting each responsibility.
¾ Performance Measures – An established basis from which progress can be
  measured.

                                                                          A-35
              Review of the FedRooms Program

Audit Objective # 2:
2a. Were federal travelers using the program?
2b. What could FAS do to enhance the FedRooms Program?

Conclusion:
   Federal travelers were generally not using the
  FedRooms program to reserve hotel accommodations
  for official business travel. Program obstacles such as
  no incentives for federal travelers, no differentiation
  between the FedRooms rate and the government rate,
  and limitation of GSA’s per diem rate for lodging may
  affect the viability of the program. Before any
  enhancements of the program are considered, FAS
  must first address program obstacles by developing
  and deploying a business plan.
                                                     A-36
                 Review of the FedRooms Program



Overall Conclusion
While we recognize that the FedRooms Program has
only been in existence for 3 years, progress has been
made with the addition of nearly 4,000 hotels and
increased accessibility. However, actual program
utilization has been less than 1% of total federal lodging
expenditures since its inception. With the government’s
buying power of 21 million annual room nights* for official
business travel, the government is in position to leverage
its buying power, thereby dramatically increasing its
opportunity for savings under the FedRooms Program.

*GSA SmartPay Travel Card data, calendar year 2006.

                                                        A-37
          Review of the FedRooms Program



Recommendation

   We recommend that the Commissioner of the Federal
   Acquisition Service:

1. Develop a business plan for the FedRooms Program
   that includes addressing the obstacles that may affect
   the future viability of the program. These obstacles
   include providing incentives to federal travelers and
   differentiating the FedRoom’s rate from the hotel’s
   government rate. In addition, the plan should take into
   consideration the impact of GSA’s per diem rates for
   lodging on the FedRooms program.
                                                      A-38
                       REVIEW OF THE FEDROOMS PROGRAM
                         FEDERAL ACQUISITION SERVICE
                       REPORT NUMBER A070167/Q/9/P08002


                                REPORT DISTRIBUTION


                                                                            COPIES

Commissioner, Federal Acquisition Service (Q)                                 3

Assistant Commissioner for Travel, Motor Vehicles, and Card Services (QM)     1

Director, Travel and Transportation Services (QMC)                            1

Director, Internal Control and Audit Division (BEI)                           1

Chief Financial Officer (B)                                                   2

Assistant Inspector General for Auditing (JA)                                 1

Assistant Inspector General for Investigations (JI)                           1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)              1

Director, Policy Plans & Operations Staff (JAO)                               1

Special Agent-in-Charge for Investigations (JI-9)                             1




                                            C-1
